provided/to i^ayo correctional institution

KlAlRFORJIlAtLING
(I/M INITIAL)

l(STAFF INITIAL)

No.
THE SUPREME COURT OF THE UNITED STATES
October Term 2020

MARCUS ADAM SNIPES - Petitioner
v.

STATE OF FLORIDA - Respondent

PROOF OF SERVICE

ar»

I, Marcus Adam Snipes, do swear or declare that on this
day of June
2021, as required by Supreme Court Rule 29,1 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR A WRIT
OF CERTIORARI, and APPENDIX TO PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by providing an envelope containing
the above documents properly addressed to each of them with first-class postage
prepaid to a prison legal mail official for mailing to each party.
The names and address of those required to be served are as follows:
Attorney General of the State of Florida
3507 E. Frontage Road, Suite 200
Tampa, FL 33607-7013
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this V

day of June 2021.

y
Mard&sAdam Snipes^#' 52&Z59^
Mayo Correctional^Jhfstitution Annex
8784 U.S. Highway 27 West
Mayo, FL 32066-3458

"RECliVED
JUN 1 7 2021

jgUsSSgSil

